                         U S. DEPARTMENT OF ENERGY
                        OFFICE OF INSPECTOR GENERAL
                          OFFICE OF AUDIT SERVICES




                    MATTERS IDENTIFIED AT THE
                   OAK RIDGE OPERATIONS OFFICE
        DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
              FISCAL YEAR 1998 FINANCIAL STATEMENTS




The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
              electronically through the Internet at the following addresses:

          Department of Energy Management and Administration Home Page

                               http://www.hr.doe.gov/ig

                                           or

                                http://www.ma.doe.gov

 Your comments would be appreciated and can be provided on the Customer Response
                          Form attached to the report.




Report Number: ER-FS-99-02                      Eastern Regional Audit Office
Date of Issue: May 1999                         Oak Ridge, TN
            MATTERS IDENTIFIED AT THE
           OAK RIDGE OPERATIONS OFFICE
DURING THE AUDIT OF THE DEPARTMENT'S CONSOLIDATED
      FISCAL YEAR 1998 FINANCIAL STATEMENTS



                 TABLE OF CONTENTS

                                                             Page

         OVERVIEW… … … … … … … … … … … … … … … … … .          1

         Introduction and Objective… … … … … … … … … … … …    1

         Scope and Methodology… … … … … … … … … … … … …        1

         Observations… … … … … … … … … … … … … … … … … ..     2

         DETAILS OF OBSERVATIONS… … … … … … … … …             3
                                            OVERVIEW


INTRODUCTION AND OBJECTIVE

        The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of the Department be submitted annually
to the Office of Management and Budget. A Departmentwide audit of the consolidated Fiscal
Year 1998 financial statements was conducted by examining internal controls, assessing
compliance with laws and regulations, evaluating accounting transaction cycles, and testing
selected account balances at various Department facilities.

        The objective of the Departmentwide audit was to determine whether the Department’s
consolidated financial statements presented fairly, in all material respects, the financial position of
the Department as of September 30, 1998 and 1997, and its consolidated net cost, changes in net
position, budgetary resources, financing activities, and custodial activities for the fiscal years then
ended in conformity with Federal accounting standards. Departmentwide issues are addressed in
Audit Report No. IG-FS-99-01, issued February 25, 1999.

       The purpose of this report is to inform Oak Ridge Operations Office management
concerning matters that came to the attention of the Office of Inspector General during the audit
at Oak Ridge Operations Office and Lockheed Martin. Oak Ridge Operations Office is
responsible for the account balances entered into the Department’s core accounting system.

SCOPE AND METHODOLOGY

       The audit was conducted from May 1998 through January 1999 at the Oak Ridge
Operations Office and Lockheed Martin. Specifically, we examined internal controls, assessed
compliance with applicable laws and regulations, and selectively tested account balances reported
to Departmental Headquarters as necessary to achieve the Departmentwide audit objective.

         Audit work was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may occur and not be detected. The issues addressed in
this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projections of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or the
effectiveness of the design and operation of policies and procedures may deteriorate.




                                                   1
        In addition to the audit work conducted by the Office of Inspector General, Lockheed
Martin internal audit personnel reviewed the payroll cycle at Lockheed Martin. The results of the
internal audit work were reported separately through internal audit’s normal reporting process.
Also, an independent public accounting firm reviewed Nuclear Materials Inventories, Pension and
Other Post-Retirement Liabilities, Disbursements, and Finance and Revenue.

        The Office of Inspector General considered all findings generated as a result of these
reviews when preparing the audit report on the Department’s consolidated Fiscal Year 1998
financial statements (Audit Report No. IG-FS-99-01) and the management report referred to in
that report. The Office of Inspector General is addressing issues requiring local management
attention in this report.

       Oak Ridge Operations Office management waived the exit conference.


OBSERVATIONS

       We observed that Oak Ridge Operations Office provided inaccurate data to Departmental
Headquarters for the environmental remediation of its active facilities. Specifically, the data
contained duplicative facilities, and for some facilities, the data was based on outdated
measurements. As a result, the Department’s accrued liability for remediation of active facilities
was overstated by $46.6 million at September 30, 1998. We recommend that Oak Ridge
Operations Office institute internal controls to ensure that its active facility remediation data is
accurate.

        Management concurred with the finding and recommendation and has agreed to take
corrective action.

       Details of the observations and management's response are on page 3.


                                                      _______(Signed)_______
                                                      Office of Inspector General




                                                 2
                                 DETAILS OF OBSERVATONS


Active Facility Data

The Department’s accrued liability for active facilities represents anticipated remediation costs for
facilities that are conducting ongoing operations but will ultimately require stabilization,
deactivation, and decommissioning. The field offices provide Departmental Headquarters with
estimated data detailed by facility type and footprint (number of floors and square footage). From
this data, the Department generates its accrued liability for remediation of facilities. As of
September 30, 1998, the Department’s accrued liability for active facilities was about $20 billion.

The active facility remediation data that Oak Ridge Operations Office provided to Departmental
Headquarters contained duplicative facilities and, in some cases, was based on outdated
measurements. Specifically, two facilities included in the data, White Oak Creek and White Oak
Lake, had also been included in data submitted for the Environmental Management program
facilities. Likewise, the data included the Dye Penetration Waste Storage facility, which had also
been included in data submitted for pipeline facilities. These duplications resulted in a
$44.3 million overstatement of the active facility accrued liability at September 30, 1998. In
addition, the accrued liability for 6 facilities was overstated by $2.3 million because the submitted
data was based on outdated measurements. An inadequate system of internal controls for active
facility data contributed to this condition.


Recommendation

        The Manager, Oak Ridge Operations Office, should institute internal controls to ensure
that active facility remediation data is accurate.


Management Response

         Management concurred with the finding and stated that its responsible management and
integrated contractor has been directed to ensure that active facility remediation data are not
duplicated in the program. Management indicated that a letter is being transmitted to the
contractor directing that internal controls be established which mandate that the active facilities
listing and facility square-footage data be updated and reviewed prior to the end of the fiscal year.
Management also stated that it will continue to monitor the contractor's progress in establishing
and instituting these controls.

Auditor Comment

       The planned action is responsive to the intent of the recommendation.




                                                  3
                                                              IG Report No. ER-FS-99-02




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

       1.      What additional background information about the selection,
               scheduling, scope, or procedures of the audit or inspection would
               have been helpful to the reader in understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this report to assist
               management in implementing corrective actions?

       3.      What format, stylistic, or organizational changes might have made this
               report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General have taken
               on the issues discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we
have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General
at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




                                                 4
5
